Andrew Jay Schwartzman
Attorney At Law
1341 G Street, NW
Fifth Floor
Washington, DC 20005
(202) 241-2408
AndySchwartzman@gmail.com
May 12, 2020
BY ELECTRONIC FILING
Honorable Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 First Street, NW
Washington, DC 20543
RE:

Federal Communications Commission v. Promeetheus Radio
Project, No. 19-1231
National Association of Broadcasters v. Prometheus Radio Project,
No. 19-1241

Dear Mr. Harris;
I represent the following Respondent-Intervenors in the above-referenced Petitions for
Certiorari: Benton Institute for Broadband & Society, National Hispanic Media Coalition,
National Organization for Women Foundation, Media Alliance and Media Counsel
Hawai’i.
The Brief in Opposition for the 19-1231 Petition was originally due on May 20, 2020.
The Brief in Opposition for the 19-1241 Petition was originally due on May 22, 2020.
By Orders dated May 6, 2020, this Court granted Respondents’ request to extend the time
for filing their Brief in Opposition in No. 19-1231 and 19-1241 through and including
July 21, 2020.
My clients anticipate that they would file one brief in opposition in response to both
petitions, and respectfully ask that the deadline for filing such brief be similarly extended
through and including July 21, 2020. This extension is needed to allow time to coordinate
with co-counsel and the many other parties, especially in light of the complications

arising from the COVID-19 pandemic.
Petitioners do not object to this request.
Respectfully submitted,

Andrew Jay Schwartzman
Counsel for Benton Institute for Broadband & Society,
National Hispanic Media Coalition, National
Organization for Women Foundation, Media Alliance
and Media Counsel Hawai’i
cc (via e-mail):

Noel J. Francisco, Solicitor General
Helgi C. Walker
David D’Allessandro
Sally A. Buckman
Jaetander Dulani
Craig Gilmore
Jack Goodman
Kevin King
Dennis Lane
David Oxenford
Eve Klindera Reed
Ruthanne Deutsch
Cheryl Leanza
Yosef Getachew
Matthew Wood
Jessica Gonzalez
Danielle Coffey

-2-

